—=
I

C@OCKLE

: E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-928

NATIONAL COALITION FOR MEN,
JAMES LESMEISTER, AND ANTHONY DAVIS,
Petitioners,

v.

SELECTIVE SERVICE SYSTEM AND
DONALD BENTON, AS DIRECTOR OF
SELECTIVE SERVICE SYSTEM,
Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE CENTER
FOR MILITARY READINESS, EAGLE FORUM, CONCERNED WOMEN FOR AMERICA,
ADM JEROME JOHNSON, LTG BENJAMIN R. MIXON, LTG WILLIAM G. BOYKIN, MG
WILLIAM K. SUTER, RADM HUGH P. SCOTT, MD, AND PAUL O. DAVIS, PHD, AS AMICI
CURIAE IN SUPPORT OF RESPONDENTS in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 5946 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 12th day of March, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

My Com >. September 5, 2023

 

 

GENERAL NOTARY-State of Nebraska 2 / Z Chie
RENEE J. GOSS 9 = a

Notary Public Affiant 40752
